                                                                                           Office of Inspector General

                                                                                           U.S. Department of Homeland Security
                                                                                           Dallas Field Office, Office of Audits
                                                                                           3900 Karina Street, Room 224
                                                                                           Denton, Texas 76208




                                                 June 1, 2006


MEMORANDUM FOR:                        David I. Maurstad, Regional Director
                                       FEMA Region VIII


FROM:                                  Tonda L. Hadley
                                       Field Office Director

SUBJECT:                               University of North Dakota
                                       Grand Forks, North Dakota
                                       FEMA Disaster Number DR-1174-ND
                                       Public Assistance Identification Number 000-92004
                                       Audit Report Number DD-08-06

The Office of Inspector General (OIG) audited public assistance funds awarded to the University of
North Dakota (UND), Grand Forks, North Dakota. The objective of the audit was to determine
whether UND accounted for and expended Federal Emergency Management Agency (FEMA) funds
according to federal regulations and FEMA guidelines.

UND received an award of $43.90 million from the North Dakota Division of Emergency
Management (NDDEM), a FEMA grantee, for damages caused by severe flooding, severe winter
storms, heavy spring rain, rapid snowmelt, high winds, ice jams, and ground saturation due to high
water tables that occurred in February through May 1997. The award provided 100 percent FEMA
funding, for emergency protective measures (Categories A and B) and 90 percent FEMA funding for
permanent work (Categories C through G) on 54 large projects and 62 small projects.1 The audit
covered the period February 28, 1997, to July 22, 2005, during which UND claimed $43.90 million
and UND received $37.33 million in FEMA funds for direct program costs.

In a previous audit of this award to UND, we reviewed costs claimed for two large and four small
projects totaling $4.19 million; and issued our report on December 9, 2003 (University of North
Dakota, Audit Report Number DD-03-04). We had begun auditing costs claimed under Project
59315 for the repair of UND’s steam lines, but decided to postpone auditing that project because
FEMA Region VIII had not completed its final closeout review and was reviewing additional costs
UND submitted that were not included in its initial claim for this project. Our preliminary audit work
indicated that UND had made improvements to its steam lines that were not in the original scope of
the project; therefore, we requested FEMA Region VIII evaluate the scope of the steam line project.

1
    Federal regulations in effect at the time of the disaster set the large project threshold at $46,000.
FEMA’s evaluation confirmed the out-of-scope work; and, on July 22, 2005, FEMA de-obligated
$861,780 of ineligible costs from Project 59315. Therefore, $861,780 in FEMA funds were put to
better use.

In this audit, we reviewed costs claimed totaling $28.42 million, consisting of $25.40 million for
repairs to UND steam lines plus $1,836,658 for associated project management fees (both claimed
under Project 59315), and $1.17 million for project management fees associated with the
reconstruction of 79 buildings claimed under various project numbers. (See Exhibit).

We performed the audit under the authority of the Inspector General Act of 1978, as amended, and
according to generally accepted government auditing standards. The audit included interviews of
UND, NDDEM, and FEMA Region VIII staff; reviews of UND’s contract files; tests of UND’s
accounting records, including a judgmental sample of the five largest dollar invoices billed by the
project management firm; and other auditing procedures considered necessary under the
circumstances.

                                      RESULTS OF AUDIT

Overall, UND accounted for and expended $25.40 million for repairs to its steam lines according to
federal regulations and FEMA guidelines. However, UND did not comply with federal regulations
and FEMA guidelines in awarding contracts for project management services totaling $3,005,823.
As a result, full and open competition did not occur and FEMA has no assurance that the contract
costs were fair and reasonable. Therefore, we are questioning $3,005,823 as ineligible contract costs.

Improper Contracting

UND did not follow applicable federal procurement standards in awarding $3,005,823 of contracted
management service costs. UND procured non-competitive time-and-material cost type contracts for
management of the steam line replacement project ($1,836,658) and for the management of
reconstruction of 79 buildings ($1,169,165) on the UND campus. We questioned the entire
$3,005,823 because UND awarded the contracts without full and open competition and included cost
plus a percentage of cost provisions.

Procurement standards at 44 CFR 13.36:
       • Require the performance of procurement transactions in a manner providing full and open
         competition. (13.36(c)(1)) except under certain circumstances. ((13.36(d)(4)(i)
         Noncompetitive procurement may be used only under certain circumstances such as
         when the public exigency or emergency for the requirement will not permit a delay
         resulting from competitive solicitation. (13.36(d)(4)(i)(B))
       • Require that subgrantees maintain records sufficient to detail the significant history of the
         procurement, including the rationale for the method of procurement, the basis for
         contractor selection, and basis for the contract price. (13.36(b)(9))
       • Require a cost or price analysis in connection with every procurement action, including
         contract modifications. (13.36(f)(1))
       • Prohibit the use of cost plus a percentage of cost and percentage of construction cost
         methods of contracting. (13.36(f)(4))


                                                  2
       •   Prohibit the use of time-and-material type contracts unless no other contract is suitable
           and the contract includes a ceiling price that the contractor exceeds at its own risk.
           (13.36(b)(10))
       •   Require negotiation of profits as a separate element for contracts in which there is no
           price competition and in all cases where cost analysis is performed. (13.36(f)(2))

UND awarded two contracts totaling $3,005,823 for project management services of the steam line
replacement and reconstruction projects. The contracts were non-competitive, time-and-material
type contracts that contained cost-plus-a-percentage-of-cost provisions. The contractor billed for
services at hourly rates plus an 80 percent mark-up of $1,104,667 on program management services
and a 10 percent mark-up of $45,237 on reimbursable expenses.

UND’s contract files did not contain documentation required to identify the method of procurement,
the rationale for the procurement, or the selection of the contractor. The contract files also contained
no evidence to justify the use of non-competitive, time-and-material type contracts. We requested
documentation from UND officials to identify the method, rationale, and selection of the contractor
but they did not provide any of the requested documentation.

In addition to not contracting properly, UND did not require the contractor to adequately support
invoices for labor and other expenses. According to 44 CFR 13.20(b)(2), a subgrantees must
maintain records that adequately identify the source and application of funds. Additionally, 44 CFR
13.20(b)(6) states, “Accounting records must be supported by such source documentation as
cancelled checks, paid bills, payrolls, time and attendance records, contract and subgrant award
documents, etc.” We reviewed five invoices totaling $492,285 for project management services on
the steam line project. The invoices consisted of costs for labor ($340,776), fringe benefits
($92,662), and other reimbursable expenses ($58,847). We identified the following deficiencies in
the documents provided to support the invoices:

   •   Documentation for three of the five invoices did not reconcile to the invoiced amounts.
   •   Documentation for labor charges consisted of summaries of hours worked and total dollars
       without associated timesheets to support the number of hours billed or the type of work
       performed.
   •   Invoices did not explain how fringe benefits were applied to labor charges.
   •   Invoices included allocated costs for cell phones, supplies, shipping, and general liability
       insurance to the steam line project without explaining the method of allocation.
   •   Documentation for employee meals, and travel did not explain the purpose of the travel or
       how the expenses related to the steam line project.

According to 44 CFR 13.37(a)(2), states are responsible for ensuring “that subgrantees are aware of
requirements imposed upon them by Federal statute and regulation”. Further, 44 CFR 13.40 (a)
requires states to monitor subgrant supported activities to assure compliance with applicable federal
requirements. UND’s lack of compliance with federal procurement standards indicates that UND
either ignored or was not aware of federal statutes and regulations and that State officials did not
adequately monitor UND’s subgrant activities.




                                                   3
Under 44 CFR 13.43(a)(2), Remedies for noncompliance, failure to comply with applicable statutes
or regulations can result in the disallowance of the costs of all or part of the activity or action not in
compliance. Federal procurement standards exist to ensure full and open competition and fair and
reasonable pricing. Because UND did not follow federal procurement regulations, full and open
competition did not occur and FEMA has no assurance that contract costs claimed were fair and
reasonable. Accordingly, we question the $3,023,868 of contracted management service costs.

Recommendations

We recommend that the Regional Director, FEMA Region VIII:

   1. Disallow $3,005,823 of ineligible contract costs claimed for project management services;
      and

   2. Require the North Dakota Division of Emergency Management to develop, document, and
      implement procedures for future disasters to (a) provide subgrantees timely guidance on
      federal regulations, standards, and guidelines related to procurement and (b) monitor
      subgrantees to ensure compliance with those federal regulations, standards, and guidelines.


              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

We discussed the results of the audit with UND, NDDEM, and FEMA officials on May 23, 2006.
UND, NDDEM and FEMA officials agreed with the findings and recommendations.

Please advise this office by August 31, 2006, of the actions taken or planned to implement the
recommendations, including target completion dates for any planned actions. If you have questions
concerning this report, please call Paige Hamrick at (940) 891-8900. Major contributors to this
report were Paige Hamrick, Charles Riley, and Jerry Meeker.




                                                     4
                                                               EXHIBIT


               Schedule of Audited Projects
                University of North Dakota
              FEMA Disaster Number 1174-ND



Project        Description          Amount      Questioned
Number           Of Work            Claimed       Costs
 59315    Steam Lines Repair      $25,399,080    $         0
 59315        Project Mgmt          1,836,658      1,836,658
Various   Project Mgmt Services     1,169,165      1,169,165
 Totals                           $28,422,948     $3,005,823




                             5
